CERTIFICATE OF SERVICE

I, Brenda J. Covington, herby certify that on January 30,2020, a copy of this
Application for Extension of Time to file a Petition for Writ of Certiorari in the
above entitled case was mailed, first class, postage prepaid to all parties on listed
below.

Date:

California Supreme Court
350 McAllister Street
San Francisco, CA 94102
(415) 865-7000
Court of Appeal 2nd District
Ronald Reagan State Building
300 S Spring Street B228
Los Angeles, CA 90013
(213) 830-7000
Workers' Compensation Appeals Board
P.O. Box 429459
San Francisco, CA 94142
(415) 703-5020
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave, N.W.
Washington DC 20530-0001
(202) 514-2203
Shaw, Jacobsmeyer, Crain, Claffey
21820 Burbank Blvd, Ste 325
Woodland Hills, CA 91367
Attn: Jason A. Chlowitz
(818) 205-1215
Superior Court
Stanley Mosk Courthouse
111 N Hill Street
Los Angeles, CA 90012
Room 111A Attn: Mark
(213) 830-0800

